THE SMALL COMMUNITY AIR SERVICE
     DEVELOPMENT PROGRAM
    DEPARTMENT OF TRANSPORTATION
         Office of the Secretary
       Report Number: CR-2008-051
        Date Issued: May 13, 2008
                                                                                                           1



                                                              Memorandum
            U.S. Department of
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject: ACTION: Report on the Audit of the Small                                 Date: May 13, 2008
        Community Air Service Development Program
        Office of Aviation Analysis
        Report No: CR-2008-051

 From: David Tornquist                                                         Reply to
                                                                               Attn of: JA-50
        Assistant Inspector General for Rail and
          Maritime Program Audits and Economic
          Analysis

   To: Acting Associate Director, Office of Aviation Analysis


        This report presents the results of our audit of the Small Community Air Service
        Development Program (SCASDP). Concerns have been raised by some
        stakeholders regarding the program’s effectiveness. In addition, Congress is
        considering possible reforms to this program as part of its larger reauthorization of
        aviation programs. We initiated this audit in response to a request from the
        Assistant Secretary for Aviation and International Affairs. The Office of Aviation
        Analysis (OAA) has administered the SCASDP since its inception in fiscal year
        (FY) 2001.

        The objective of this audit was to determine the effectiveness of SCASDP in
        helping small-hub 1 and non-hub 2 communities in achieving sustainable air
        service. To achieve this objective, we reviewed SCASDP grants to determine:
        (1) which grants succeeded and which ones failed; and, (2) whether certain project
        characteristics or project types lead to a greater likelihood of grant success.
        Furthermore, we sought to identify “lessons learned” that could improve the
        probability of small-hub and non-hub communities achieving sustainable air
        service as a result of their SCASDP grants.



        1
            Small-hub airports enplane between 0.05% and 0.25% of total system-wide passengers enplaned.
        2
            Non-hub airports enplane fewer than 0.05% of total system-wide passengers enplaned.
                                                                                    2


We performed our audit in accordance with generally accepted government
auditing standards prescribed by the Comptroller General of the United States.
We reviewed all 40 grants issued between 2002 and 2006 (excluding feasibility
studies) that had been closed for 12 months or more as of March 31, 2007. This
criteria enabled us to determine if the projects could sustain themselves without
continued Federal support. Exhibit A fully describes our scope and methodology
and Exhibit B includes our evaluative criteria, which we used to determine the
success or failure of the grants in our review, along with representative case
studies.

BACKGROUND
The airline industry’s high fixed costs have traditionally made it more difficult to
establish or sustain economically viable air service in smaller communities.
Congress recognized this when it deregulated air service and created programs
such as the Essential Air Service (EAS), to ensure certain small communities
continued to receive air service. Few, if any, EAS communities are ever able to
grow their air service so that it can be sustained without Federal subsidies.
Congress subsequently created SCASDP in FY 2001 to provide temporary help to
small communities to achieve sustainable air service; thereby avoiding the need
for ongoing Federal subsidies. An additional goal of the program was to generate
creative air service development proposals that could possibly be implemented in
other similar small communities.

The economic downturn of the early part of the decade, the events of
September 11, 2001, rising fuel costs, and excess seat capacity led to airline
bankruptcies and restructurings, which further exasperated small communities’
abilities to attract and sustain air service. Although industry economics have
rebounded somewhat in recent quarters, fundamental changes in the industry
combined with the general risk averseness of airlines has made it more challenging
for small communities to retain and enhance their air service.

Through FY 2007, the Department of Transportation (DOT) has issued slightly
over 200 SCASDP grants totaling approximately $100 million to small and non-
hub communities (see Exhibit C for a complete list of all SCASDP grants issued
to date). SCASDP is authorized to fund a maximum of 40 air service development
grants per year. Grant awards have ranged from $20,000 to $1.6 million and have
funded a wide range of air service initiatives, designed to achieve sustainable air
service to small community airports.

In a review of the grants issued in the pilot years of the program, i.e. grants issued
in FY 2002 and FY 2003, the Government Accountability Office found mixed
                                                                                                3


results but stated that too few grants had been completed to allow them to draw
conclusions. Although the Administration has requested no funding for this
program since its inception, Congress has funded SCASDP at $20 million between
FY 2002 and 2005 and at $10 million from FY 2006 through FY 2008.

RESULTS IN BRIEF
We found that half of the grants we reviewed failed to achieve their objectives or
were unable to sustain the resulting benefits beyond their grant horizon.
Communities that performed a market analysis prior to implementing their grants,
followed through with substantive financial and non-financial support, and used a
part of their SCASDP funding to implement an airport awareness marketing
campaign enjoyed significantly better success in obtaining sustainable air service.
Giving priority to those communities whose SCASDP grant proposals incorporate
these attributes will improve the overall success rate of the program.

While Most Projects Failed to Fully Achieve Their Objectives, Certain
Grant Types Were More Successful Than Others

We found that 70 percent of the grants in our review failed to fully achieve their
objectives (see figure 1 below). Specifically, 50 percent of the grants in our
review were unable to achieve any of their articulated grant objectives,
12.5 percent were voluntarily terminated prior to any substantive progress being
achieved and 7.5 percent were unable to obtain or achieve all their grant
objectives. We found that 30 percent were successful in achieving their grant
objectives and sustaining the resulting benefits for at least 12 months. Exhibit B
presents a detailed description of the evaluation criteria of the Office of Inspector
General (OIG) along with representative case studies.

                            Figure 1. SCASDP Grant Outcomes

                                                   7.5%
                                                          12.5%


                    3 Grants                                                        5 Grants

                                                                30%
                                          50%



                                                                                    12 Grants
                20 Grants



                               Succes s   Failed     Partial Success   Terminated

Source: OIG analysis.
                                                                                                                                                    4


Certain grant objectives were more successful than others. We also found that
44 percent of revenue guarantee grants succeeded, while only 19 percent of
marketing grants succeeded. None of the four expense subsidy and start-up costs
grants were successful (see figure 2 below). [Note: Four grants under our review
had multiple grant objectives. The success or failure of each of these objectives
was assessed independently of the others.]

                                                     Figure 2. Outcome by Grant Objective
                   18

                                 16
                   16
                                 12%
                   14

                                 12%
                   12
Number of Grants




                   10
                                                                                     9                     9
                    8
                                 63%                                               33%
                                                                                                          56%
                    6
                                                               5
                                                                                                                                    4
                    4                                      40%
                                                                                   56%
                                                           20%                                            22%
                    2                                                                                                             100%
                                                           20%                                                                                  1
                                  12%                                                                     22%
                                                           20%                      11%                                                     100%
                    0                                                                                                          pp rt-
                              rv ing




                                                                                                      rv t ee
                                                          )




                                                                                rv t ee
                                                         ice




                                                                                                                                           r
                                                                                                                                    t
                                   e)




                                                                                                            )




                                                                                                                            Su ta
                                                                                      )




                                                                                                                                           he
                                                                                                                                 or
                                                                                                   S e ran
                                                                                                        ice
                           Se xist




                                                                                  ice
                                                                              Se n
                                                       rv




                                                                                                                          st d S
                                ic




                                                                             g a ra




                                                                                                                                         Ot
                                          13%                                                                             22%
                                                     Se




                                                                                                 ew ua
                             (E




                                                                                                                       Co y an
                                                                         t in u




                                                                                              11%
                                                  ew




                                                                                              (N e G
                                                                      xis e G
                           g
                          tin




                                                                                                                     Up sid
                                                (N




                                                                   (E nu




                                                                                                nu
                       ke




                                                                                                                      ub
                                                 g




                                                                      ve




                                                                                             ve
                    ar




                                             t in




                                                                                                                      S
                   M




                                                                                           Re
                                                                   Re
                                           ke




                                                                                                                   st
                                         ar




                                                                                                                Co
                                        M




                                                                   Terminated             Failed       Partial            Success

     Note: Percentages may not add to 100% due to rounding.
Source: OIG analysis.

In addition, we found that grants targeting the introduction of new service rather
than the expansion of existing service were more successful (50 percent vs.
20 percent). This was true within grant categories as well. Revenue guarantees
for new service were more successful than for existing service (56 percent vs.
33 percent) and marketing grants for new service were more successful than for
existing service (40 percent vs. 12 percent).

Grants targeting existing service may be less likely to succeed because these
mature markets may provide less of a growth opportunity than well-selected new
markets or may reflect attempts by communities to resuscitate a failing service.
                                                                                  5


Community Participation and the Process That Communities Follow
Increases the Likelihood of Success

Community financial and non-financial participation increased the likelihood
of grant success. Eleven out of the 33 grants with greater than 10 percent
community financial participation succeeded, compared to only one out of the
seven grants (14 percent) with 10 percent or less participation. However, the
likelihood of success did not increase as the level of community financial
participation increased beyond 10 percent.

A community’s non-financial participation plays a key role in influencing an
airline’s decision making. For example, community leaders and organizations,
such as local chambers of commerce and economic development corporations, can
play a critical role in compiling market data as well as developing and delivering a
sound proposal to the airlines.

The process communities follow can increase the potential success of their
grant. The process certain communities followed rather than the nature of their
SCASDP grants was a greater determinant of grant outcome. The key elements of
a successful grant process are outlined below:

•   Conduct Market Analysis – Reliable market data was the most significant
    determinant of grant success.

•   Articulate SCASDP Strategy – SCASDP strategy should be based on market
    analysis.

•   Present Air Service Proposal to Airlines and Negotiate Air Service
    Improvements - Community leaders and local organizations, such as the local
    chamber of commerce, play a key role in proposing air service initiatives and
    negotiating with target airlines.

•   Implement Grant - SCASDP grants usually carry significant implementation
    risk, which is offset significantly with the quality and depth of the management
    teams at small community airports. Small communities offset any potential
    disadvantage by augmenting their management expertise through the judicious
    use of aviation consultants.

•   Market and Brand – Spending some SCASDP funds on marketing programs
    in support of non-marketing grants (such as revenue guarantees, cost subsidies,
                                                                                                            6


      etc.) can stimulate demand for air services by increasing awareness of airport
      services and reversing the leakage 3 of passengers to surrounding airports.

Lessons Learned

The same project limitation prevents potentially successful grant proposals
from being considered. Communities may not be able to fully utilize the
program due to the same project limitation. The same project limitation precludes
a community from pursuing follow-on grants using grant strategies that have
worked for them in the past. As a result, many communities, (especially in the
pilot years of the program, 2002 and 2003), are precluded from seeking virtually
any new grants due to the same project limitation.

The lack of funding flexibility may negatively impact the effectiveness of the
program. Airlines typically have all of the leverage in their negotiations with
small communities. As a result, airlines expect communities to react very quickly
when they are in a position to implement a community’s air service proposals. As
such, access to SCASDP funding is key to a small community’s air service
proposal. Some small communities must forego certain air service possibilities
because SCASDP is between funding cycles.

Summary of Recommendations

Our review found that communities which conduct in-depth market analysis and
support their grants through substantive financial and non-financial support are
more likely to succeed. Accordingly, we are recommending that OAA give
priority to participate in the program to those communities that include an in-depth
market analysis (except where inapplicable, such as feasibility studies) with their
grant application; and, involve substantive levels of financial and non-financial
community participation. Additionally, OAA should require communities
requesting non-marketing grants (e.g. revenue guarantee grants, cost subsidy
grants, etc.) to use a part of the funding awarded to them to implement a marketing
program that complements their overall grant strategy.

Furthermore, we found that the same project limitation may limit the overall
success of the program by excluding communities that have successfully
implemented grants in the past from reapplying. Therefore, we are recommending
that OAA evaluate the impact of the same project limitation on the overall success
of the program, and seek legislative changes if necessary. A list of our

3
    Passenger leakage is an approximate measure of the number of passengers that do not use the local
    airport for their air travel, choosing instead to travel to or from a competing airport in search of lower
    airfares and scheduling conveniences.
                                                                                                         7


recommendations can be found on page 14. Management’s response is included
in its entirety in the Appendix.

FINDINGS
Most Grants Were Not Successful, but Some Grant Types Were More
Successful Than Others

We found that 70 percent of the grants in our review failed to fully achieve their
objectives (see figure 1 on page 3). Specifically, 50 percent of the grants were
unable to achieve any of their articulated grant objectives or were unable to sustain
grant benefits beyond the grant horizon; 7.5 percent were deemed to be partially
successful suggesting that these communities were either unable to achieve all of
their articulated grant objectives or unable to sustain the grant benefits through the
end of June 2007; and, 12.5 percent were terminated prior to any substantive
progress being achieved towards implementing their SCASDP grants. The
remaining 30 percent of the grants were successful in achieving their grant
objectives and sustaining the resulting benefits for at least 12 months. Exhibit B
presents a detailed description of the OIG’s evaluation criteria along with
representative case studies.

Revenue guarantee grants had the highest success rate, 44 percent (or eight out of
18 grants). Comparatively, only 19 percent (or four out of 21 grants) of marketing
grants succeeded. None of the four expense subsidy and start-up costs grants were
successful (see figure 2 on page 4).

Overall we found that grants targeting the introduction of a new service rather than
the expansion of an existing service were more successful (50 percent vs.
20 percent). This was true within grant categories as well. Revenue guarantees
for a new service were more successful than for an existing service (56 percent vs.
33 percent) and marketing grants for a new service were more successful than for
an existing service (40 percent vs. 12 percent).

Grants targeting existing service may be less likely to succeed because these
mature markets 4 may provide less of a growth opportunity than well-selected new
markets or may reflect attempts by communities to resuscitate a failing service.
For instance, a community in our review had requested SCASDP funding to
implement a marketing campaign to increase passenger enplanement in support of
its existing air service. At the time of their grant request, the community operated

4
    Most grants (11 out of 12) targeting the expansion of existing service by either introducing additional
    frequencies or by upgauging existing aircraft, had operated in those markets before or since January
    2000.
                                                                                                        8


air service in one market, a major west coast hub airport, and this market by our
definition (see footnote 4) was a mature market. The main impetus behind the
grant was to retain and in a best case scenario bolster flying to the aforementioned
hub airport. However, based on our review we determined that the traffic in this
market declined by 12 percent during the grant period and an additional 16 percent
in the post-grant period. Eventually, this decrease in enplanements led to the
community losing its service to this market.

Furthermore, we found that most 5 of the communities requesting grants to
enhance existing service had not performed any form of market analysis. We
noted a strong correlation between communities that had performed a market
study and those who had successfully enhanced their existing air service. We
found that three out of the four successful grants had performed a market study.
In contrast, none of the unsuccessful grants had performed a market study. Thus
we conclude that communities targeting existing service are more likely to
succeed when they perform a market analysis as this allows them to ascertain if
their proposed air service enhancements are sustainable in the long run.

Community Financial and Non-Financial Participation Increased the
Likelihood of Grant Success

Eleven out of the 33 grants with greater than 10 percent community financial
participation succeeded, compared to only one out of the seven grants (14 percent)
with 10 percent or less participation. Figure 3 on the following page highlights
the success rate of grants, based on community participation.




5
    We conducted teleconferences or site visits with each of the 12 communities targeting existing service
    enhancements and found that only three of them had performed a market study.             A list of the
    communities where we conducted site visits or teleconferences can be found in Exhibit D.
                                                                                                9


   Figure 3. Grant Success Rate by Level of Community Participation

                 Partial    1                                                 Success   1
                 Terminated 2                                                 Partial   1
                                                     3                        Failed    5
                                                            7
                                               5
        Success         2
        Failed          2                                                     Success       7
        Terminated      1                                                     Partial       1
                                              9                               Failed        8
                                                            16
           Success          2
           Failed           5
           Terminated       2


                                     0% thru 10%    11%thru 25% 26%thru 50%
                                     51%thru 75%    76%thru 100%

 Note: Percentages may not add to 100% due to rounding.

Source: OIG analysis.

Although we found that community financial participation did influence grant
outcome, the likelihood of success did not increase as the level of community
financial participation increased beyond 10 percent.

A community’s non-financial participation plays a key role in influencing an
airline’s decision making. For example, community leaders and organizations,
such as local chambers of commerce and economic development corporations, can
play a critical role in compiling market data as well as developing and delivering a
sound proposal to the airlines. We are recommending that OAA give priority to
grant proposals with substantive levels of financial and non-financial community
participation.

The Process Communities Follow can Increase Their Ability to
Successfully Implement Their SCASDP Grant

The SCASDP strategies (i.e. revenue guarantees vs. marketing, etc.) that
communities choose to pursue allows them to compete for air service against other
small communities. However, the process they follow in implementing their
SCASDP grants determines grant outcome. The key elements of a successful
grant process are outlined in figure 4 on the following page.
                                                                                              10


    Figure 4. Key Elements of a Successful SCASDP Grant Process



     Conduct
       Conduct      Articulate
                        Articulate   Present Air Air
                                        Present  Service
                                                     Service
     Market
       Market       SCASDP
                        SCASDP       Proposal to Airlines
                                        Proposal  to Airlines   Implement
                                                                   Implement   Market and &
                                                                                  Market
     Analysis       Strategy         & Negotiate                Grant
                                                                   Grant       Brand
                                                                                  Brand
       Analysis         Strategy        & Negotiate



Source: OIG analysis.

•   Conduct Market Analysis – Reliable market data was the most significant
    determinant of grant success. Good market data enables a community to
    identify their air service gaps and market opportunities, which allows them to
    identify air service development opportunities that have the highest probability
    of being sustainable in the long run. Without market analysis, airport and
    community leaders have unsupported notions about the air service needs of
    their community and the type of service that would be sustainable. For
    example, a community in New England used its SCASDP funding to
    implement a revenue guarantee in support of new air service to a medium-hub
    airport in the vicinity. This decision was made on the basis of anecdotal
    evidence they had received from various members of their community. Shortly
    after introducing this air service, the community and the airline in question
    determined that the demand for this service would not materialize and they
    decided to discontinue the air service.

    Through our conference calls and site visits, we found a strong correlation
    between communities that had successfully implemented their SCASDP grants
    and those that had performed some form of a market study (either prior to
    requesting their grant or as a first step in the implementation of their grant).
    Community support and the use of aviation consultants contribute significantly
    to the execution of a market analysis, a time-consuming and intricate process.

•   Articulate SCASDP Strategy – Articulating a SCASDP strategy, based on
    market analysis, allows a community to formulate an air service plan that makes
    a compelling business case to target airlines. This allows the community to
    pursue air service initiatives that have the highest probability of attracting
    sustainable air service improvement to their communities. For example, a
    community in the Northeast engaged aviation consultants to conduct a market
    study. Based on the results of the market study, the consultants recommended
    that the community should target three daily flights to a specific major hub
    airport in the Northeast. Additionally, the consultant recommended using a
                                                                                                          11


     revenue guarantee to support these flights as this would be very attractive to the
     dominant air carrier at the target airport. The community successfully
     introduced the new service and then sustained this service beyond their grant
     horizon. During the grant period, the airline was so pleased with the overall
     performance of the new service that they added additional frequencies (not
     supported by the revenue guarantee) in this market. The additional frequencies,
     however, were not feasible and service was scaled back to the three flights
     suggested by the consultants.

     Market studies also provide data on other significant factors such as the impact
     of passenger leakage. Market studies not only quantify the number of
     passengers that leak from small community airport, but they also provide data
     on the impact of factors such as ticket pricing and scheduling convenience on
     the amount of leakage from a community. Access to this data allows a
     community to adapt its SCASDP strategy to address such factors, which may
     enhance a small community’s ability to sustain its air service enhancement in
     the long run.

•    Present Air Service Proposal to Airlines and Negotiate – Community support
     plays a key role in articulating a small community’s business case in favor of its
     proposed air service and its ensuing negotiations with target airlines. Local
     leadership, organizations such as the local chamber of commerce, and local
     businesses collectively play a key role in attracting and sustaining air services to
     small communities.

     Local businesses and local organizations play a critical role in convincing target
     airlines of the economic viability of the proposed air service by establishing the
     size and quality of the high-yielding business traffic 6 generated from a small
     community. Since very intense competition among small communities for the
     limited airline resources exists, most air service development proposals require
     small communities to provide some form of financial incentives to the target
     airline to attract them to their community. Participation by community
     leadership in air service development initiatives establishes the credibility of the
     financial incentives offered to target airlines, and reassures them of accessible
     financial assistance, when needed.

     For instance, one of the communities we reviewed requested SCASDP funding
     to implement a revenue guarantee in hopes of upgrading their existing service
     from propeller-based to regional jet aircraft. The community’s decision to

6
    Business passengers, who generally tend to pay more for air services than leisure passengers, are critical
    to convincing target airlines of the short-term and long-term economic viability of small community air
    service.
                                                                                   12


    upgauge to regional jets was grounded in a market study, which suggested that
    a significant proportion of their air travelers were high-yielding business
    passengers who leaked to surrounding airports (a non-hub airport within
    60 miles, a small-hub airport within 120 miles, or a major hub airport within
    180 miles) rather than use the daily air service from the community to three east
    coast hub airports. The study identified two main reasons for the passenger
    leakage: 1) business passengers were unwilling to fly on propeller aircraft that
    had operated in this market prior to their grant and 2) the scheduling of flights
    from the local airport resulted in significant layovers at the hub airports. In
    response to the market study, the community formed an air service development
    committee, comprised of the airport director as well as representatives from the
    local chamber of commerce and local businesses. The committee collectively
    negotiated the upgauging of the aircraft in this market to regional jets,
    modifying flight scheduling to reduce layovers at the hub airports connected to
    their airport. This resulted in a significant decline in passenger leakage from
    the community, which played a key role in the community’s ability to
    successfully sustain regional jet service beyond the grant horizon.

•   Implement Grant – SCASDP grants usually carry significant implementation
    risk, which is offset significantly with the quality and depth of the management
    teams at small community airports. Small communities can offset any potential
    disadvantage by augmenting their management expertise through the judicious
    use of aviation consultants.

•   Market and Brand – Airlines operating in small communities typically have
    limited resources at their disposal to invest in marketing programs designed to
    stimulate the demand for their services from small communities. Therefore, we
    found that spending some SCASDP funds on marketing programs in support of
    non-marketing grants (such as revenue guarantees, cost subsidies, etc.) can
    stimulate demand for air services by increasing awareness of airport services
    and reversing the leakage of passengers to surrounding airports.

    For instance, airport authorities, the largest resort community, and the chamber
    of commerce at a year-round leisure community in the Rocky Mountains
    collectively raised funds to fund a marketing campaign in support of a SCASDP
    sponsored revenue guarantee to a major west coast hub airport. The marketing
    campaign not only sought to stimulate demand from the local market and curb
    passenger leakage, but it also collaborated with the airlines operating from the
    community to design promotional campaigns, stimulating tourist traffic to the
    community. The community also takes advantage of e-mail distributions and
    other internet advertising tools that stimulate traffic to and from the community.
    Based on our review, we concluded that the community not only achieved its
                                                                                 13


  SCASDP objective, it was also successful in stimulating traffic and attracting
  air service to an alternate west coast hub airport. The community in question
  believed that the traffic stimulated through its marketing campaign was critical
  in both of its successful air service initiatives outlined above.

Based upon these results, we recommend that OAA give priority to communities
who include an in-depth market analysis (except where inapplicable, such as
feasibility studies) in their grant application. Additionally, OAA should require
communities requesting non-marketing grants (e.g. revenue guarantee grants, cost
subsidy grants, etc.) to use a part of the funding awarded to them to implement a
marketing program that complements their overall grant strategy.

The Same Project Limitation Prevents Potentially Successful Grant
Proposals From Being Considered

We found that communities may not be able to fully utilize the program due to the
same project limitation. The same project limitation precludes a community from
pursuing follow-on grants using grant strategies that have worked for them in the
past. As a result, many communities (especially those that received grants in the
pilot years of the program, i.e. 2002 and 2003), are precluded from seeking
virtually any new grants. This problem is particularly significant for those
communities in the initial years of the program that had received grants with fairly
broad objectives.

For example, a Midwestern community was awarded a grant in the pilot years of
the program to implement, among other things, a cost subsidy and start-up cost
relief program, a market study, and a marketing campaign. This grant enabled
them to secure service with a low-cost carrier. However, this service ceased after
being in service for less than a year due to the financial distress and subsequent
restructuring of the airline operating this service. Following the closing of their
initial SCASDP grant, the community applied for a follow-on grant that sought to
encourage airlines to target leisure traffic as a means to curb passenger leakage to
surrounding airports. The community offered to offset an airline’s start-up and
operating costs associated with introducing flights at off-peak times such as
weekends or to leisure destinations. The community’s application, however, was
denied under the “same project limitation” as both the current proposal as well the
community’s initial proposal had sought to provide cost relief to the airlines
operating from their airport.

Encouraging innovative solutions to the problems confronting small communities
was one of the key impetuses behind the program. As discussed above, the same
project limitation may be restricting small communities from developing creative
                                                                                 14


solutions to address their air service deficiencies, which may limit the overall
effectiveness of the program. We recommend that OAA evaluate the impact of
the same project limitation on the effectiveness of the program and seek legislative
changes, if necessary.

The Lack of Funding Flexibility May Negatively Impact the
Effectiveness of the Program

OAA presently conducts one grant cycle per fiscal year. This involves soliciting
grant proposals through a request for proposal, reviewing and deliberating on
grant applications, and formalizing grant agreements with successful communities
and obligating requisite funds. This process is usually completed in the fourth
quarter of the fiscal year, typically around the second to third week of September.

Airlines typically have all of the leverage in their negotiations with small
communities. As a result, airlines expect communities to react very quickly when
they are in a position to implement communities’ air service proposals. As such,
access to SCASDP funding is key to a small community’s air service proposal.
Some small communities must forego certain air service possibilities because the
SCASDP is between funding cycles.


RECOMMENDATIONS
We recommend that the Office of Aviation Analysis:

1. Give priority to participate in the program to those communities whose grant
   applications:
     a. include an in-depth market analysis (except where inapplicable, such as
         feasibility studies), and
     b. involve substantive levels of financial and non-financial community
         participation.
2. Require communities requesting non-marketing grants to use a part of the
   funding awarded to them to implement a marketing program that
   complements their overall grant strategy.
3. Evaluate the impact of the same project limitation on the effectiveness of the
   program and seek legislative changes, if necessary.
                                                                                   15


AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided the Office of Secretary of Transportation (OST) with our draft report
on March 13, 2008, and we received their response on May 9, 2008. OST’s full
response is included in the appendix to this report. OST concurred with each of
our recommendations and has taken action to implement them.

Recommendation 1: OST concurred with our recommendation to give priority to
those grant applications which include in-depth market analysis (except where
inapplicable, such as feasibility studies) and involve substantive levels of financial
and non-financial community participation. In its order soliciting SCASDP grant
proposals for 2008, OST has emphasized that a thorough understanding of the
target market is essential for grant success and encourages communities requesting
funds for certain types of grants to include in-depth market analysis with their
proposals.

Regarding community financial and non-financial participation, OST stated that
they have historically made an effort to treat locally based participation as a factor
to be considered when evaluating the merits of competing proposals. The order
soliciting grant proposals for 2008 also included a statement that communities that
contribute from local sources (other than airport revenues) are accorded priority
consideration during the grant selection process.

Recommendation 2: OST also concurred with our recommendation to require
communities requesting non-marketing grants to use a portion of their funding to
implement a marketing program which complements their overall grant strategy.
OST stated that they agree that grant projects which incorporate marketing have a
greater likelihood of success. Accordingly, they have incorporated language in the
order soliciting grant proposals for 2008 that encourages communities to designate
in their grant proposals, a portion of the funds for the development of a marketing
plan in support of the service they are seeking to obtain.

Recommendation 3: Regarding our recommendation to evaluate the impact of
the same project limitation and seek legislative changes if necessary, OST also
concurred. According to OST, Congress amended the SCASDP in 2003 and
added the provision excluding communities from receiving additional funds for
the same project. As currently written, OST believes that the statute provides
latitude in determining what represents a “same project” and they do not foresee a
need to seek any legislative changes. In their 2008 order, OST provided guidance
to applicants on how they determine whether a proposed project is sufficiently
different to constitute a new project. They stated that they would look particularly
                                                                               16


at the goals and objectives of the previous grant as well as the key components of
the means by which those goals and objectives are to be achieved when
considering a new proposal from a prior grantee.

ACTIONS REQUIRED
OST’s response and actions taken address the intent of our recommendations.
Therefore, we consider these recommendations resolved.
We appreciate the courtesies and cooperation of OST representatives during this
audit. If you have any questions regarding this report, please contact me at
(202) 366-1981 or Mitch Behm, Program Director, at (202) 366-1995.


                                        #


cc:   Acting Under Secretary for Policy, S-3
      Acting Assistant Secretary for Aviation and International Affairs, OST, X-1
      Audit Liaison, OST, M-1
                                                                                                        17




EXHIBIT A. SCOPE AND METHODOLOGY

Scope

This performance audit was conducted in accordance with generally accepted
government auditing standards prescribed by the Comptroller General of the
United States. The scope of our audit included all 187 SCASDP grants issued
between fiscal years 2002 and 2006. From this, we selected all 40 grants 7 issued
between 2002 and 2006 (excluding feasibility studies) that had been closed for
12 months or more as of March 31, 2007. These grants enabled us to determine if
the projects were at least minimally self-sustaining. Please refer to Exhibit C for a
list of all grants issued under the program and the 40 grants included in our audit.
Figure 5 below graphically presents the grants we reviewed by year of issue.
                      Figure 5. Grants Reviewed by Year of Issue


                                                 2004
                                                  8%



                                         2003
                                         25%                 2002
                                                             67%




We reviewed background information on each of the 40 grants including the grant
application, grant agreement (including any subsequent grant amendments), and
final “closeout reports” submitted by communities upon completion of their
SCASDP grants. This enabled us to assess the objective(s) of each grant and
allowed us to identify the strategies that communities deployed in order to achieve
their desired goal. Furthermore, this information provided us with a baseline to
assess if a community was successful in achieving its stated grant objective(s) and
if the grant strategy proposed by a community was effective in achieving


7
    OIG review included five grants that had been voluntarily terminated by the communities receiving those
    grants.


Exhibit A. Scope and Methodology
                                                                                                     18


sustainable air service improvements to a community.                         Figure 6 provides a
breakout of grants by grant objective. 8

                       Figure 6. Grants Reviewed by Objective

                                                                  2%
                                                       9%

                                         22%




                                                            36%
                                     20%


                                                 11%




                  Marketing (Existing Service)                Marketing (New Service)
                  Revenue Guarantee (Existing Service)        Revenue Guarantee (New Service)
                  Expense Subsidy and Start-Up Cost           Other

Methodology

We used a variety of quantitative and qualitative data in an effort to evaluate
whether the communities in our review were successful in achieving their stated
grant objectives and whether they were able to sustain the resulting grant benefits
beyond the grant horizon. We collected flight activity data from FAA’s Flight
Schedule and Delay Statistics (FSDS) database and passenger enplanement data
from the Bureau of Transportation Statistics’ (BTS) 298C Schedule T1 Passenger
Database and T-100 Passenger Enplanement Database. We conducted trend
analyses and checks of the data to assess reasonableness and comprehensiveness.
We also spoke with managers responsible for maintaining the databases to
understand any noted inconsistencies and attempted to resolve them. Based on our
understanding of the data through discussions with knowledgeable agency
officials, as well as checks for obvious errors in accuracy and completeness, we
determined that the data was sufficiently reliable for our purposes.

The FSDS data was used to measure the changes in the flight activity from a small
community airport and the passenger enplanement data was used to measure
changes in passenger traffic. We conducted site visits or teleconferences with
8
    Four grants in our review had two major grant objectives. As a result, each of these grants had been
    counted in two grant categories. The success or failure of each grant objective has been assessed
    independently of the other.


Exhibit A. Scope and Methodology
                                                                                                       19


airport and community representatives from each of the communities in our
review 9 (except for the five communities in our review that had voluntarily
terminated their grants) in an effort to measure the impact of their SCASDP grants
on their ability to attract sustainable air service improvements. In addition, we
also talked to aviation consultants in an effort to develop a deeper appreciation for
the challenges confronting small community airports and to identify some “lessons
learned” that could improve the probability of small-hub and non-hub
communities achieving sustainable air service.

As referenced earlier, five of the communities in our review had terminated their
grants prior to making any substantive progress towards implementing their
SCASDP funded projects. In each case, the community in question spent less than
15 percent of the funds awarded to them under this program. Based on this, we
concluded that these communities had not made substantive progress towards
implementing their SCASDP grants and therefore decided to waive further review
on these grants to determine their success or failure.




9
    We were successful in conducting teleconferences with 20 communities and conducted site visits with an
    additional four communities.


Exhibit A. Scope and Methodology
                                                                                                                                   20


EXHIBIT B. EVALUATION CRITERIA AND CORRESPONDING
CASE STUDIES

OIG developed evaluation criteria that were applied uniformly to the grants in our
review and provided us with the platform to equitably evaluate the success or
failure of the grants under our review. The OIG’s evaluation criteria were as
follows:

Success – A community was deemed to have successfully implemented its
SCASDP grant, if it was able to achieve its articulated grant objective(s) and then
sustain the resulting benefit for at least 12 months.

Case Study: One of the communities in our review spent most of its SCASDP
funding to hire a business development manager whose primary objective was to
execute a market study and use the data collected from the market study to
develop a marketing plan that would (1) lead to an increase in passenger
enplanements, and (2) put the community in a position to attract new air service to
complement and compete with their existing air service. Based on our analysis we
determined that this community increased passenger enplanements by 80 percent
(see figure 7 below) during the grant period and then sustained passenger
enplanements at a higher level in the post-grant period. Furthermore, this
community parlayed the increased passenger enplanements to attract air service to
a competing hub airport on a new airline and increased flight activity from the
community as portrayed in figure 8 below. We concluded that this community
successfully achieved its grant objective and sustained resulting grant benefits.
                                                   Successful Case Study
                         Figure 7. Pass. Enplanement Data                         Figure 8. Flight Activity Data
                         30,000                                            400
Passenger Enplanements




                                                                           350
                         25,000
                                                                           300
                         20,000
                                                                           250
                                                                 Flights




                         15,000                                            200

                                                                           150                                        Post-Grant
                         10,000                                                     Pre-Grant Period   Grant Period
                                                         Post-                                                          Period
                                                                           100
                                  Pre-Grant   Grant     Grant
                                                         Post-
                          5,000   Pre-Grant
                                   Period     Grant
                                              Period    Period              50
                                                         Grant
                            -                                                0
                                                                                        0



                                                                                        1



                                                                                        2


                                                                                        3



                                                                                        4



                                                                                        5



                                                                                        6
                                                                              0


                                                                                      01


                                                                                      02



                                                                                      03



                                                                                      04


                                                                                      05



                                                                                      06



                                                                                      07
                                                                                     l-0



                                                                                     l-0



                                                                                     l-0


                                                                                     l-0



                                                                                     l-0



                                                                                     l-0



                                                                                     l-0
                              03




                              05
                              02

                              02

                              03



                              04

                              04



                              05




                              07
                              00

                              00

                              01

                              01




                              06

                              06




                                                                           -0


                                                                                    n-


                                                                                    n-



                                                                                    n-



                                                                                    n-


                                                                                    n-



                                                                                    n-



                                                                                    n-
                                                                      n
                           Q3




                           Q1
                           Q1

                           Q3

                           Q1

                           Q3

                           Q1



                           Q1

                           Q3



                           Q3
                           Q1

                           Q3




                           Q1

                           Q3

                           Q1




                                                                                  Ju



                                                                                  Ju



                                                                                  Ju


                                                                                  Ju



                                                                                  Ju



                                                                                  Ju



                                                                                  Ju
                                                                   Ja



                                                                                 Ja


                                                                                 Ja



                                                                                 Ja



                                                                                 Ja


                                                                                 Ja



                                                                                 Ja



                                                                                 Ja




Source: BTS data.                                                Source: FAA data.



Failed – A community was deemed to have failed in implementing its SCASDP
grant if it was unable to achieve any of its articulated grant objective(s) or unable


Exhibit B. Evaluation Criteria and Corresponding Case Studies
                                                                                21


to sustain the resulting benefits beyond its grant horizon.

Case Study: A community in our review spent the funding awarded to it under the
program to execute a revenue guarantee to attract new air service to the
community. Based on our analysis, we concluded that the community was
successful in attracting new air service (see figure 9 below). However, it was
unable to sustain this service beyond their grant horizon. Thus, we concluded that
this grant had failed.

                                 Failed Case Study
                    Figure 9. New Air Service Flight Activity Data

            50
            45
            40
            35
            30
  Flights




                                                    New Air
            25                                      Service
            20                New Air               Terminates
                              Service
            15                Commences
            10
             5
             0
            Sep-     Oct-      Nov-03     Dec-      Jan-         Feb-    Mar-04
Source: FAA data.


Partial Success – A community was deemed to be partially successful in
implementing its SCASDP grant, if it was able to achieve some of its articulated
grant objectives and/or sustain the resulting benefits at levels that were
significantly lower then had been anticipated in its grant proposal.
Case Study: One of the communities in our review used its SCASDP funding to
implement a marketing program to stimulate air traffic from the community in
hopes of attracting new service to one of two Midwestern hub airports. Based on
our analysis (see figure 10 on the following page), we concluded the community
was able to: (1) achieve a sustained increase in passenger enplanements, (2) use
the increased enplanement to upgauge its existing air service to regional jets, and
(3) introduce new air service to one of the hub airports outlined in its proposal.
However, this service ceased operations during the grant period due to the


Exhibit B. Evaluation Criteria and Corresponding Case Studies
                                                                                                                   22


financial restructuring undertaken by the airline operating this service. We
concluded that although this community was unable to achieve all of its articulated
grant objectives, it did benefit from its participation in this program. Furthermore,
it was able to sustain these benefits for at least 12 months. Therefore, we
considered this grant to be a partial success.
                                                   Partial Success Case Study
                                        Figure 10. Passenger Enplanement Data

                       30,000

                       25,000
 Passengers Enplaned




                       20,000

                       15,000
                                                      Introduced        Upgauged all air            Lost
                                                      new air           service to primarily        new air
                       10,000                         service           regional jet service        service

                        5,000             Pre-Grant                Grant Period                  Post-Grant
                                           Period                                                  Period
                          -                                                            05

                                                                                            05

                                                                                                 06

                                                                                                       06

                                                                                                              07
                                   00



                                              01

                                                      02

                                                           02

                                                                03

                                                                     03

                                                                           04

                                                                                  04
                              00



                                        01




                                                         3

                                                              1

                                                                    3

                                                                         1




                                                                                         3

                                                                                                1

                                                                                                      3

                                                                                                           1
                         1

                                 3

                                      1

                                            3

                                                  1




                                                                               3

                                                                                    1
                                                        Q

                                                             Q

                                                                   Q

                                                                        Q




                                                                                               Q

                                                                                                     Q

                                                                                                          Q
                                                                                   Q

                                                                                        Q
                        Q

                                Q

                                     Q

                                           Q

                                                 Q




                                                                              Q




Source: FAA and BTS data.

Terminated – The community in question voluntarily terminated its grant prior to
making any substantive progress towards implementing their grants. In each case,
the community spent less that 15 percent of the funds that were awarded to it.

Case Study: One of the communities in our review successfully received a grant
to implement a revenue guarantee and marketing campaign in support of
expanding its existing air service to a major Midwestern hub airport. Although the
community wanted to add additional flights to the hub airport, it was unable to
convince the airline that the enhanced flying would be feasible. The community
in question decided to terminate its grant rather than amend the scope of its grant.
Prior to terminating its grant, the community had spent less than 3% of the funding
that had been awarded to it under the program.




Exhibit B. Evaluation Criteria and Corresponding Case Studies
                                                                                       23


EXHIBIT C. SCASDP GRANTS ISSUED BETWEEN 2002 AND
2007

          Grant Year         Community/Consortium of              State   Amount
             (FY)                Communities

     1      2002       King Cove, Sand Point, Akutan, Cold Bay,    AK       $240,000
                       False Pass, Nelson Lagoon
      2     2002       Mobile                                      AL       $456,137
      3     2002       Fort Smith                                  AR       $108,520
      4     2002       Lake Havasu City                            AZ       $403,478
      5     2002       Santa Maria                                 CA       $217,530
      6     2002       Lamar                                       CO       $250,000
      7     2002       Daytona Beach                               FL       $743,333
      8     2002       Augusta/Aiken                              GA/SC     $759,004
      9     2002       Mason City                                  IA       $600,000
     10     2002       Hailey                                      ID       $600,000
     11     2002       Marion                                       IL      $212,694
     12     2002       Fort Wayne                                  IN       $398,000
     13     2002       Manhattan                                   KS       $388,350
     14     2002       Paducah                                     KY       $304,000
     15     2002       Somerset                                    KY        $95,000
     16     2002       Lake Charles                                LA      $500,000
     17     2002       Presque Isle                                ME       $500,000
     18     2002       Houghton & Pellston                         MI      $120,000
     19     2002       Brainerd, St Cloud                          MN     $1,000,000
     20     2002       Cape Girardeau                              MO      $500,000
     21     2002       Meridian                                    MS       $500,000
     22     2002       Asheville                                   NC       $500,000
     23     2002       Bismarck                                    ND     $1,557,500
     24     2002       Scottsbluff                                 NE       $950,000
     25     2002       Taos/Ruidoso                                NM       $500,000
     26     2002       Binghamton                                  NY       $500,000
     27     2002       Akron/Canton                                OH      $950,000
     28     2002       Baker City                                  OR       $300,000
     29     2002       Reading                                     PA       $470,000
     30     2002       Rapid City                                  SD     $1,400,000
     31     2002       Bristol/Kingsport/Johnson City              TN      $615,000
     32     2002       Abilene                                     TX        $85,010
     33     2002       Beaumont/Port Arthur                        TX      $510,000
     34     2002       Moab                                        UT       $250,000
     35     2002       Lynchburg                                   VA       $500,000
     36     2002       Bellingham                                  WA       $301,500
     37     2002       Pasco                                       WA       $200,000
     38     2002       Rhinelander                                 WI       $500,000
     39     2002       Charleston                                  WV       $500,000
     40     2002       Casper, Gillette                            WY       $500,000
  Source: OAA
            Represents Communities in the OIG Sample




Exhibit C. SCASDP Grants Issued Between 2002 and 2007
                                                                                        24


         Grant Year         Community/Consortium of             State     Amount
            (FY)                Communities

   2002 - Replacement and Reallocated Grants

    41     2002       Chico                                      CA           $44,000
    42     2002       Visalia                                    CA          $200,000
    43     2002       Telluride                                  CO          $300,000
    44     2002       Syracuse                                   NY          $480,000
    45     2002       Rutland                                    VT          $280,000
    46     2002       Bridgeport/Clarkesburg                     WV          $372,286
                                   FY 2002 Total                          $21,661,342

    47     2003       King Cove, Sand Point, Akutan, Cold Bay,    AK         $70,000
                      False Pass, Nelson Lagoon
    48     2003       Dothan                                      AL         $200,000
    49     2003       Baxter County/West Plains/Gainesville     AR/MO        $574,875
    50     2003       Arizona Rural Consortium                    AZ       $1,500,000
    51     2003       Bakersfield                                 CA         $982,513
    52     2003       Fresno                                      CA       $1,000,000
    53     2003       Gunnison/Crested Butte                     CO          $200,000
    54     2003       Gainesville                                 FL         $660,000
    55     2003       Savannah/Hilton Head                      GA/SC        $523,495
    56     2003       Dubuque/East Dubuque/Platteville         IA/IL/WI      $610,000
    57     2003       Lewiston                                    ID         $675,000
    58     2003       Owensboro                                   KY         $500,000
    59     2003       Shreveport                                  LA         $500,000
    60     2003       Bangor                                     ME          $310,000
    61     2003       Muskegon                                    MI         $500,000
    62     2003       Duluth                                     MN        $1,000,000
    63     2003       Cut Bank                                   MT           $90,000
    64     2003       Joplin                                     MO          $500,000
    65     2003       Greenville                                 MS          $400,000
    66     2003       Tupelo                                     MS          $475,000
    67     2003       North Carolina Consortium                  NC        $1,200,000
    68     2003       Dickinson/Williston                         ND         $750,000
    69     2003       Grand Island                                NE         $380,000
    70     2003       Taos Consortium                            NM        $1,400,000
    71     2003       Athens/Morgantown                        OH/WV         $587,224
    72     2003       Marietta/Parkesburg                      OH/WV         $500,000
    73     2003       Redmond                                    OR          $515,000
    74     2003       Erie                                        PA         $500,000
    75     2003       Aguadilla                                   PR         $626,700
    76     2003       Charleston                                  SC       $1,000,000
    77     2003       Pierre                                      SD         $150,000
    78     2003       Knoxville                                   TN         $500,000
    79     2003       Victoria                                    TX          $20,000
    80     2003       Staunton                                    VA         $100,000
    81     2003       Friday Harbor                              WA          $350,000


           Represents Communities in the OIG Sample




Exhibit C. SCASDP Grants Issued Between 2002 and 2007
                                                                             25


          Grant Year         Community/Consortium of   State   Amount
             (FY)                Communities

    2003 - Replacement and Reallocated Grants
      82     2003    Hot Spings                         AR       $195,000
      83     2003    Elmira                             NY       $200,000
      84     2003    Worcester                          MA       $442,615
      85     2003    Laredo                             TX       $400,000
                                      Total                    $21,087,422

     86     2004       Huntsville                       AL       $479,950
     87     2004       Redding/Arcata                   CA       $500,000
     88     2004       Santa Rosa                       CA       $635,000
     89     2004       Steamboat Springs                CO        $500,000
     90     2004       New Haven                        CT       $250,000
     91     2004       Sarasota                         FL      $1,500,000
     92     2004       Albany                           GA        $500,000
     93     2004       Sioux City                       IA        $609,800
     94     2004       Waterloo                         IA        $550,000
     95     2004       Pocatello                        ID         $75,000
     96     2004       Champaign/Urbana                  IL       $200,000
     97     2004       Bloomington                       IL       $850,000
     98     2004       Evansville/South Bend            IN      $1,000,000
     99     2004       Lafayette                        LA        $240,000
    100     2004       Alpena                           MI        $583,046
    101     2004       Kalamazoo                        MI        $500,000
    102     2004       Marquette                        MI       $700,000
    103     2004       Columbus                         MS        $260,000
    104     2004       Butte                            MT       $360,000
    105     2004       Lincoln                          NE      $1,200,000
    106     2004       McCook/North Platte              NE        $275,000
    107     2004       Lebanon                          NH        $500,000
    108     2004       Farmington                       NM        $650,000
    109     2004       Elko                             NV        $222,000
    110     2004       Youngstown                       OH       $250,000
    111     2004       Salem                            OR        $500,000
    112     2004       Dubois                           PA        $400,000
    113     2004       Latrobe                          PA        $600,000
    114     2004       Wilkes-Barre/Scranton            PA        $625,000
    115     2004       Sumter                           SC         $50,000
    116     2004       Sioux Falls                      SD        $350,000
    117     2004       Chattanooga                      TN       $750,000
    118     2004       Del Rio                          TX       $318,750
    119     2004       Tyler                            TX         $90,000
    120     2004       Logan                            UT       $530,000
    121     2004       Charlottesville                  VA       $250,000
    122     2004       Richmond                         VA       $950,000
    123     2004       Walla Walla                      WA       $250,000
    124     2004       Eau Claire                       WI       $500,000
    125     2004       Beckley/Lewisburg                WV        $300,000
                                         Total                 $19,853,546


            Represents Communities in the OIG Sample


Exhibit C. SCASDP Grants Issued Between 2002 and 2007
                                                                              26


          Grant Year         Community/Consortium of    State   Amount
             (FY)                Communities

    126     2005       Montgomery                        AL        $600,000
    127     2005       Modesto                           CA       $550,000
    128     2005       Monterey                          CA        $500,000
    129     2005       California Consortium             CA       $245,020
    130     2005       Durango                           CO        $750,000
    131     2005       Marathon                          FL       $750,000
    132     2005       Macon                             GA        $507,691
    133     2005       Idaho Falls                        ID       $500,000
    134     2005       Rockford                           IL     $1,000,000
    135     2005       Somerset                          KY        $950,000
    136     2005       Alexandria                        LA        $500,000
    137     2005       Knox County                       ME        $555,000
    138     2005       Hancock/Houghton                   MI       $516,000
    139     2005       Sault Sainte Marie                 MI       $587,000
    140     2005       Hibbing                           MN        $485,000
    141     2005       Marshall                          MN        $480,000
    142     2005       Farmington/Poplar Bluff            MI       $936,404
    143     2005       Gulfport/Biloxi                   MS        $750,000
    144     2005       Great Falls                       MT        $220,000
    145     2005       Greenville                        NC        $450,000
    146     2005       Jacksonville                      NC        $500,000
    147     2005       Fargo                             ND       $675,000
    148     2005       Ruidoso                           NM        $600,000
    149     2005       Ithaca                            NY       $500,000
    150     2005       Stewart (Newburgh)                NY       $250,000
    151     2005       Massena                           NY       $400,000
    152     2005       Lawton/Ft. Sill                   OK        $570,000
    153     2005       Oregon/Washington Consortium     OR/WA      $180,570
    154     2005       Bradford                          PA        $220,000
    155     2005       Williamsport                      PA        $500,000
    156     2005       Florence                          SC       $500,000
    157     2005       Aberdeen                          SD        $450,000
    158     2005       Killeen                           TX        $280,000
    159     2005       Cedar City                        UT        $155,000
    160     2005       Vernal                            UT         $40,000
    161     2005       Huntington                        WV       $500,000
    162     2005       Wyoming Consortium                WY        $800,000
                                          Total                 $18,952,685

    163     2006       Fairbanks                         AK       $500,000
    164     2006       Tuscaloosa                        AL       $400,000
    165     2006       Chico                             CA       $472,500
    166     2006       Palmdale                          CA       $900,000
    167     2006       Montrose                          CO       $450,000
    168     2006       Melbourne                         FL       $800,000
    169     2006       Burnswick                         GA       $500,000
    170     2006       Cedar Rapids                      IA       $200,000
    171     2006       Springfield                       IL       $390,000
    172     2006       Gary                              IN       $600,000
    173     2006       Garden City/Dodge City/Liberal    KS       $150,000
    174     2006       Big Sandy Redion                  KY        $90,000




Exhibit C. SCASDP Grants Issued Between 2002 and 2007
                                                                                        27


         Grant Year         Community/Consortium of              State    Amount
            (FY)                Communities

   175     2006       Monroe                                     LA           $50,000
   176     2006       Jackson                                    MS          $400,000
   177     2006       Kalispell                                  MT          $450,000
   178     2006       Grand Forks                                ND          $350,000
   179     2006       Jamestown/Devil's Lake                     ND          $100,000
   180     2006       Gallup                                     NM          $600,000
   181     2006       Jamestown/Devil's Lake                     NY          $150,000
   182     2006       Toledo                                     OH          $400,000
   183     2006       North Bend                                 OR          $400,000
   184     2006       Harrisburg                                 PA          $400,000
   185     2006       Abilene                                    TX          $465,100
   186     2006       Longview                                   TX          $225,000
   187     2006       Lynchburg                                  VA          $250,000
                                       Total                               $9,692,600

   188     2007       Yuma                                       AZ         $200,000
   189     2007       Stockton                                   CA         $400,000
   190     2007       New Haven                                  CT         $300,000
   191     2007       Panama City                                FL         $575,000
   192     2007       Burlington                                 IA         $140,000
   193     2007       Terre Haute                                IN         $350,000
   194     2007       Bowling Green                              KY         $150,000
   195     2007       Lexington                                  KY         $600,000
   196     2007       Ironwood                                   MI         $135,000
   197     2007       Saginaw                                    MI         $500,000
   198     2007       Kirksville                                 MO          $30,000
   199     2007       Golden Triangle                            MS         $500,000
   200     2007       Greenville                                 MS         $450,000
   201     2007       Helena                                     MT         $450,000
   202     2007       North Carolina DOT (11 non-hub airports)   NC         $573,278

   203     2007       Minot                                      ND         $500,000
   204     2007       Southeast New Mexico Air Service           NM         $400,000
                      Coalition, Roswell
   205     2007       Athens                                     OH          $50,000
   206     2007       Youngstown                                 OH         $575,000
   207     2007       Astoria/Newport                            OR         $842,400
   208     2007       Klamath Falls                              OR         $400,000
   209     2007       Pennsylvania DOT (4 airports excluding     PA         $400,000
                      Latrobe)
   210     2007       Mid-Continent EAS (only Jackson)           TN           $50,000
   211     2007       St. Croix                                  VI          $150,000
   212     2007       Oak Harbor                                 WA          $180,000
   213     2007       Rhinelander                                WI           $75,000
                                         Total                             $8,975,678

                                    Grand Total                          $100,223,273




Exhibit C. SCASDP Grants Issued Between 2002 and 2007
                                                     28


EXHIBIT D. LIST OF TELECONFERENCES AND SITE VISITS

Site visits:

1.       Bristol, TN
2.       Fort Wayne, IN
3.       Hailey, ID
4.       Lynchburg, VA

Teleconferences:

1.       Abilene, TX
2.       Akron/Canton, OH
3.       Binghamton, NY
4.       Charleston, WV
5.       Daytona Beach, FL
6.       Dothan, AL
7.       Dickinson/Williston, ND
8.       Erie, PA
9.       Fort Smith, AR
10.      Gainesville, FL
11.      Gunnison/Crested Butte, CO
12.      Huntsville, AL
13.      Lake Havasu City, AZ
14.      Manhattan. KS
15.      Moab, UT
16.      Muskegon, MI
17.      Presque Isle, ME
18.      Rhinelander, WI
19.      Scottsbluff, NE
20.      Victoria, TX




Exhibit D. List of Teleconferences and Site Visits
                                                                              29


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT


Name                          Title

David Tornquist               Assistant Inspector General for Rail and Maritime
                              Program Audits and Economic Analysis

Mitchell Behm                 Program Director

Marshall Jackson              Project Manager

Jay Borwankar                 Senior Financial Analyst

Meredith McDaniel             Analyst

Michael Broadus               Analyst

Darlisa Crawford              Writer - Editor




Exhibit E. Major Contributors to This Report
                                                                                         30


       APPENDIX. AGENCY COMMENTS



       U.S. Department of
                                              Memorandum
       Transportation
       Office of the Secretary
       of Transportation




Subject: OIG Draft Report: Audit of the Small Community Air             Date: May 9, 2008
         Service Development Program

 From: Michael W. Reynolds, Acting Assistant Secretary for          Reply to Aloha Ley, X-55
       Aviation and International Affairs, X1                       Attn. of: Ext. 62347

    To: David Tornquist, Assistant Inspector General for Rail and
        Maritime Program Audits and Economic Analysis

       Thank you for providing us with the opportunity to review and comment on the
       subject draft report concerning the Small Community Air Service Development
       Program (Small Community Program). We appreciate your responsiveness to our
       request for the Office of the Inspector General (OIG) to review the Small
       Community Program and recommend actions to strengthen its operation.

       While the report of necessity focuses on a limited number of community projects,
       primarily from the pilot years of the program, its findings generally comport with
       our experience in administrating the Small Community Program. The discussion
       (pp. 9-12) on the process communities can follow to increase the likelihood of
       project success is especially helpful.

       As explained below, we concur with all of the OIG recommendations and have
       acted to implement each of them. These actions stem in large measure from
       discussions with your staff during the course of the review.

       OIG Recommendation 1: Give priority to participate in the program to those
       communities whose grant applications: (a) include an in-depth market analysis
       (except when inapplicable, such as feasibility studies), and (b) involve substantive
       levels of financial and non-financial community participation.

       OST Response: Concur. With respect to market analysis, our recently issued
       order soliciting Small Community Program proposals for 2008, Order 2008-3-8,


       Appendix. Agency Comments
                                                                                  31


(1) emphasizes that a thorough understanding of the target market is essential for
the ultimate success of new or expanded air service and (2) specifically
encourages communities requesting funds for a revenue guarantee or other type of
financial incentive to include in their proposals an in-depth analysis evidencing
close familiarity with their target markets. These provisions were included based
on the OIG review.

With respect to local funding and non-financial community participation, we
recognize that the report findings suggest a positive relationship between the level
of community support and the success of local projects. This supports our efforts
to treat locally based financial and non-financial participation as a key component
of a community’s commitment to the success of its proposal, and as a factor to be
considered when evaluating the merits of competing proposals. In fact, the statute
treats as priority considerations both community contribution toward the project
and public-private partnership in project implementation. Our long-standing
emphasis on local participation is continued in our 2008 Order, which clearly
states that communities that contribute from local sources (other than airport
revenues) are accorded priority consideration during the grant selection process.

OIG Recommendation 2: Require communities requesting non-marketing grants
to use a part of the funding awarded to them to implement a marketing program
that complements their overall grant strategy.

OST Response: Concur. We agree that grant projects that incorporate marketing
have a greater likelihood of success. For this reason, our 2008 Order (1) states
that the chances that a new or expanded air service will become self-sustaining are
enhanced when its implementation is supported by a well-designed marketing
campaign, and (2) encourages communities to designate in their grant proposals a
portion of the funds for the development and implementation of a marketing plan
in support of the service sought. These provisions were incorporated into the 2008
Order based on the OIG review.

OIG Recommendation 3: Evaluate the impact of the same project limitation on
the effectiveness of the program and seek legislative changes, if necessary.

OST Response: Concur. Congress amended the Small Community Program in
2003 and added the provision excluding communities from receiving additional
funds for the same project. Congress took this action to exclude follow-on grants
and prevent the Small Community Program from becoming another Essential Air
Service program. As currently written, the statute gives the Small Community
Program latitude in determining what is a “same project” and we presently foresee
no need to seek a legislative change. In our 2008 Order, we provided further


Appendix. Agency Comments
                                                                                  32


guidance to grant applicants regarding how we determine whether a project
proposed by a former grantee is sufficiently different to constitute a new project.
Specifically, we stated that in assessing whether a previous grantee’s current
proposal represents a new project, we would look particularly at the goals and
objectives of the earlier grant, as well as the key components of the means by
which those goals and objectives are to be achieved, in comparison to the current
proposal.




Appendix. Agency Comments
                                                                                33


The following pages contain textual versions of the charts and graphs found in this
document. These pages were not in the original document, but have been added
here to accommodate assistive technology.
                                                                                 34


      Audit of the Small Community Air Service Development Program
                     Section 508 Compliant Presentation


                      Figure 1. SCASDP Grant Outcomes
              Grant Outcomes        Number of          Percent of
                                     Grants             Grants
                                                       Reviewed
             Success                    12               30.0%
             Failed                     20               50.0%
             Partial Success             3               7.5%
             Terminated                  5               12.5%
             Total                      40              100.0%

                        Figure 2. Outcome by Grant Objective
Grant Objective        Success      Partial      Failed     Terminate     Total
                                                                d
Marketing                12%          12%         63%          12%          16
(Existing Service)
Marketing (New           40%          20%         20%           20%          5
Service)
Revenue                  33%          0%          56%           11%          9
Guarantee
(Existing Service)
Revenue                  56%          0%          22%           22%          9
Guarantee (New
Service)
Cost Subsidy and         0%           0%          100%           0%          4
Start-Up Cost
Support
Other                    0%           0%          100%           0%          1
Total                                                                       44


Note 1: Four grants under review had multiple grant objectives. The success or
failure was assessed independently of the others.

Note 2: Percentages may not add up to 100% due to rounding.
                                                                             35




     Figure 3. Grant Success Rate by Level of Community Participation
Level of             Success      Partial      Failed      Terminate   Total
Community                                                     d
Participation
0% thru 10%             1             1           5             0        7
11% thru 25%            7             1           8             0       16
26% thru 50%            2             0           5             2        9
51% thru 75%            2             0           2             1        5
76% thru 100%           0             1           0             2        3
Total                   12            20          3             5       40

                 Figure 5. Grant Reviewed by Year of Issue
                      Year of Grant         Percent of
                          Issue              Grants
                                            Reviewed
                    2002                       67%
                    2003                       25%
                    2004                        8%
                    Total                    100.0%

                   Figure 6. Grants Reviewed by Objective
                   Grant Objectives         Percent of Grants
                                                Reviewed
                Marketing (Existing                36%
                Service)
                Marketing (New                    11%
                Service)
                Revenue Guarantee                  20%
                (Existing Service)
                Revenue Guarantee                 22%
                (New Service)
                Expense Subsidy and                   9%
                Start-Up Cost Support
                Other                               2%
                Total                           100.0%
                                                                                  36




       Figure 7. Successful Case Study – Passenger Enplanement Data
                           Quarter          Passengers
                                            Enplaned
                      1st Quarter 2000        11,799
                      2nd Quarter 2000        15,732
                      3rd Quarter 2000        14,793
                      4th Quarter 2000        16,109
                      1st Quarter 2001        13,553
                      2nd Quarter 2001        14,882
                      3rd Quarter 2001        13,071
                      4th Quarter 2001        12,085
                      1st Quarter 2002        10,414
                      2nd Quarter 2002        11,760
                      3rd Quarter 2002        11,187
                      4th Quarter 2002        12,670
                      1st Quarter 2003        10,197
                      2nd Quarter 2003        10,351
                      3rd Quarter 2003        12,948
                      4th Quarter 2003        18,516
                      1st Quarter 2004        14,850
                      2nd Quarter 2004        17,498
                      3rd Quarter 2004        16,966
                      4th Quarter 2004        18,440
                      1st Quarter 2005        16,312
                      2nd Quarter 2005        20,816
                      3rd Quarter 2005        19,846
                      4th Quarter 2005        20,834
                      1st Quarter 2006        18,955
                      2nd Quarter 2006        23,237
                      3rd Quarter 2006        23,710
                      4th Quarter 2006        24,378
                      1st Quarter 2007        20,417
                      2nd Quarter 2007        22,898

•   Enplanements from the airport increased by approximately 77% during the
    grant period, i.e. between the 3rd Quarter 2002 and the 3rd Quarter 2005.
•   Enplanements continued to increase by approximately 16% between the 3rd
    Quarter of 2005 and the 2nd Quarter of 2007 suggesting that grants benefits
    were sustained.
                                                                                 37


            Figure 8. Successful Case Study – Flight Activity Data
                           Quarter            Flights
                       st
                      1 Quarter 2000           803
                      2nd Quarter 2000         979
                      3rd Quarter 2000         979
                      4th Quarter 2000         968
                      1st Quarter 2001         941
                      2nd Quarter 2001         902
                      3rd Quarter 2001         838
                      4th Quarter 2001         675
                      1st Quarter 2002         604
                      2nd Quarter 2002         611
                      3rd Quarter 2002         616
                      4th Quarter 2002         617
                      1st Quarter 2003         595
                      2nd Quarter 2003         576
                      3rd Quarter 2003         615
                      4th Quarter 2003         775
                      1st Quarter 2004         780
                      2nd Quarter 2004         777
                      3rd Quarter 2004         768
                      4th Quarter 2004         765
                      1st Quarter 2005         781
                      2nd Quarter 2005         869
                      3rd Quarter 2005         899
                      4th Quarter 2005         948
                      1st Quarter 2006         970
                      2nd Quarter 2006         953
                      3rd Quarter 2006         956
                      4th Quarter 2006         932
                      1st Quarter 2007         963
                      2nd Quarter 2007         935

•   Flight activity from the airport increased by approximately 50% during the
    grant period, i.e. between the September 2002 and September 2006.
•   Flight activity continued to increase by approximately 8% between the
    September 2005 and July 2007 suggesting that grants benefits were
    sustained.
                                                                                38


              Figure 9. Failed Case Study – Flight Activity Data
                           Month               Flights
                       September 2003                0
                        October 2003                40
                       November 2003                36
                       December 2003                44
                        January 2004                42
                       February 2004                40
                         March 2004                  0

•   Community was successful in using its grants to commence new air service
    in October 2003, however, this service was not sustainable resulting in flight
    activity having to be suspended at the beginning of March 2004.

    Figure 10. Partial Success Case Study – Passenger Enplanement Data
                           Quarter           Passengers
                                             Enplaned
                      1st Quarter 2000         21,849
                      2nd Quarter 2000         26,903
                      3rd Quarter 2000         26,236
                      4th Quarter 2000         24,458
                      1st Quarter 2001         21,111
                      2nd Quarter 2001         26,848
                      3rd Quarter 2001         23,044
                      4th Quarter 2001         19,270
                      1st Quarter 2002         17,582
                      2nd Quarter 2002         22,777
                      3rd Quarter 2002         22,197
                      4th Quarter 2002         22,676
                      1st Quarter 2003         18,803
                      2nd Quarter 2003         23,608
                      3rd Quarter 2003         24,344
                      4th Quarter 2003         23,093
                      1st Quarter 2004         19,311
                      2nd Quarter 2004         23,429
                      3rd Quarter 2004         23,848
                      4th Quarter 2004         23,993
                      1st Quarter 2005         21,946
                      2nd Quarter 2005         27,520
                                                                                39


                      3rd Quarter 2005          26,084
                      4th Quarter 2005          24,676
                      1st Quarter 2006          21,591
                      2nd Quarter 2006          25,230
                      3rd Quarter 2006          23,962
                      4th Quarter 2006          22,994
                      1st Quarter 2007          19,499
                      2nd Quarter 2007          25,497

•   Enplanements from the airport increased by approximately 5% during the
    grant period, i.e. between the 3rd Quarter 2002 and the 3rd Quarter 2004.
•   Enplanements continued to increase by approximately 8% between the 3rd
    Quarter of 2005 and the 3rd Quarter of 2006 suggesting that grants benefits
    were sustained.
•   Community introduced new are service in the 2nd Quarter of 2003, this flight
    was discontinued in the 1st Quarter of 2005.
•   Community upgauged its existing air service to regional jet service in the 3rd
    Quarter of 2003.
